<html>
<title> - IMPACTS OF THE 2017 WILDFIRES IN THE UNITED STATES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




           IMPACTS OF THE 2017 WILDFIRES IN THE UNITED STATES

=======================================================================

                                (115-42)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 20, 2018

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
                [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                               __________
                             
                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
36-686 PDF                 WASHINGTON : 2019




             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                             Columbia
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
SAM GRAVES, Missouri                 ELIJAH E. CUMMINGS, Maryland
DUNCAN HUNTER, California            RICK LARSEN, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
BLAKE FARENTHOLD, Texas              DANIEL LIPINSKI, Illinois
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
DANIEL WEBSTER, Florida              ALBIO SIRES, New Jersey
JEFF DENHAM, California              JOHN GARAMENDI, California
THOMAS MASSIE, Kentucky              HENRY C. ``HANK'' JOHNSON, Jr., 
MARK MEADOWS, North Carolina             Georgia
SCOTT PERRY, Pennsylvania            ANDRE CARSON, Indiana
RODNEY DAVIS, Illinois               RICHARD M. NOLAN, Minnesota
MARK SANFORD, South Carolina         DINA TITUS, Nevada
ROB WOODALL, Georgia                 SEAN PATRICK MALONEY, New York
TODD ROKITA, Indiana                 ELIZABETH H. ESTY, Connecticut, 
JOHN KATKO, New York                     Vice Ranking Member
BRIAN BABIN, Texas                   LOIS FRANKEL, Florida
GARRET GRAVES, Louisiana             CHERI BUSTOS, Illinois
BARBARA COMSTOCK, Virginia           JARED HUFFMAN, California
DAVID ROUZER, North Carolina         JULIA BROWNLEY, California
MIKE BOST, Illinois                  FREDERICA S. WILSON, Florida
RANDY K. WEBER, Sr., Texas           DONALD M. PAYNE, Jr., New Jersey
DOUG LaMALFA, California             ALAN S. LOWENTHAL, California
BRUCE WESTERMAN, Arkansas            BRENDA L. LAWRENCE, Michigan
LLOYD SMUCKER, Pennsylvania          MARK DeSAULNIER, California
PAUL MITCHELL, Michigan              STACEY E. PLASKETT, Virgin Islands
JOHN J. FASO, New York
A. DREW FERGUSON IV, Georgia
BRIAN J. MAST, Florida
JASON LEWIS, Minnesota
                                ------                                7

 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

                  LOU BARLETTA, Pennsylvania, Chairman
ERIC A. ``RICK'' CRAWFORD, Arkansas  DINA TITUS, Nevada
BARBARA COMSTOCK, Virginia           HENRY C. ``HANK'' JOHNSON, Jr., 
MIKE BOST, Illinois                      Georgia
LLOYD SMUCKER, Pennsylvania          ELEANOR HOLMES NORTON, District of 
JOHN J. FASO, New York                   Columbia
A. DREW FERGUSON IV, Georgia,        ALBIO SIRES, New Jersey
  Vice Chair                         STACEY E. PLASKETT, Virgin Islands
BRIAN J. MAST, Florida               PETER A. DeFAZIO, Oregon (Ex 
BILL SHUSTER, Pennsylvania (Ex           Officio)
    Officio)
                                
                                
                                
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               WITNESSES

Robert J. Fenton, Regional Administrator, Federal Emergency 
  Management Agency:

    Testimony....................................................     6
    Prepared statement...........................................    27
Mark Ghilarducci, Director, Governor's Office of Emergency 
  Services, State of California:

    Testimony....................................................     6
    Prepared statement...........................................    33
Hon. Susan Gorin, First District Supervisor, Sonoma County, 
  California:

    Testimony....................................................     6
    Prepared statement...........................................    41
Eric W. Holly, Deputy Fire Warden/Deputy Director of Emergency 
  Services, Stanislaus County, California:

    Testimony....................................................     6
    Prepared statement...........................................    47
Fire Chief Thomas Jenkins, President and Chairman of the Board, 
  International Association of Fire Chiefs:

    Testimony....................................................     6
    Prepared statement...........................................    52

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 
           IMPACTS OF THE 2017 WILDFIRES IN THE UNITED STATES

                              ----------                              


                        TUESDAY, MARCH 20, 2018

                  House of Representatives,
              Subcommittee on Economic Development,
        Public Buildings, and Emergency Management,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:39 a.m. in 
room 2167, Rayburn House Office Building, Hon. Lou Barletta 
(Chairman of the subcommittee) presiding.
    Mr. Barletta. The subcommittee will come to order. Without 
objection, the Chair is authorized to declare a recess at any 
time.
    Before we begin, I ask unanimous consent that Members not 
on this subcommittee be permitted to sit with the subcommittee 
at today's hearing and ask questions. Without objection, so 
ordered.
    The purpose of today's hearing is to explore the lessons 
learned from the catastrophic 2017 wildfire season that led to 
a record number of deaths and destroyed land and critical 
infrastructure throughout 10 Western States, especially 
California.
    First and foremost, our thoughts and prayers are with all 
those who have been and continue to be impacted by these 
wildfires, as well as their fellow Americans working to restore 
vital services to the affected communities.
    As the subcommittee with primary jurisdiction over the 
Federal Emergency Management Agency, it is our responsibility 
to hear from FEMA and State and local emergency managers, 
including fire departments, who led the response to and are 
driving the recovery from the fires.
    Unfortunately, 2017 was marked by many major disasters, and 
while there has been focus on Hurricanes Harvey, Irma, and 
Maria, 2017 also included one of the worst wildfire seasons in 
United States history.
    Nationwide, over 66,000 wildfires burned over 9.7 million 
acres of land. In California alone, some 7,000 wildfires burned 
through over a half-a-million acres of land, an area larger 
than the size of New York City and Philadelphia combined.
    The 2017 wildfire season was the most destructive and 
costliest for California in its history, and the third most 
destructive season nationwide.
    It is imperative that we address the destruction caused by 
the 2017 wildfire season and work to inform long-term policy 
solutions while highlighting the importance of mitigation and 
resiliency.
    On November 30, 2017, the committee unanimously approved 
legislation I introduced, the Disaster Recovery Reform Act, on 
a bipartisan basis because of the good work that began here 
with this subcommittee.
    This legislation incorporated key provisions included in 
the SMART Rebuilding [Supporting Mitigation Activities and 
Resiliency Targets for Rebuilding] Act introduced by Chairman 
Denham. I want to thank Chairman Denham for his leadership on 
this issue.
    The focus of DRRA and the SMART Rebuilding Act is to place 
emphasis on predisaster mitigation to help ensure that our 
communities are well equipped to withstand disasters of all 
kinds.
    There is a clear return on investment for mitigation. For 
every $1 spent on mitigation, the taxpayer saves $6 to $8.
    The rebuilding that must be done in the wake of these 
wildfires provides an important opportunity to encourage smart, 
resilient rebuilding, increased mitigation measures, and cost-
effective Federal investments.
    It is my hope that an examination of last year's wildfire 
season will help inform how to strengthen our ability to 
withstand future disasters of all types across the Nation.
    I want to thank you all for being here today. I look 
forward to hearing from you on this important issue.
    I would like to welcome our new ranking member of the 
subcommittee, my friend and colleague, Ms. Titus. I look 
forward to working closely with you.
    I now recognize Ranking Member Titus for a brief opening 
statement.
    Ms. Titus. Well, thank you very much, Mr. Chairman. As you 
mentioned, this is my first hearing in the position of ranking 
member of this subcommittee, and I am very excited to be part 
of it and look forward to working with you and the other 
Members.
    I would also like to point out that we have a visitor with 
us who is a valued colleague, not a member of the committee but 
someone whose district is greatly affected by the topic we are 
going to be discussing, Mr. Salud Carbajal from California's 
24th Congressional District. He represents Ventura, Santa 
Barbara, and San Luis Obispo, where they had the largest fire 
in California, and I would like to welcome him and appreciate 
his input.
    I represent a neighbor of California, Nevada, in fact the 
heart of the Las Vegas Valley, and like the other States, 
Nevada is at risk of many natural disasters. We have 
earthquakes, wildfires, severe winter storms, and floods. So, 
addressing these matters is very important to my constituency.
    We do not see it as a Democratic or a Republican matter but 
as something that we as a Nation need to invest in, make a 
commitment to, so our communities can be more prepared and 
resilient.
    This committee has operated in that bipartisan fashion, and 
I thank the chairman for that. We need to work together on the 
issues that impact the health, safety, security, and welfare of 
all our constituents.
    Today's hearing on wildfires is extremely timely, because 
we are seeing natural disasters like wildfires happen much more 
frequently, with increasingly costly impacts. So, the Federal 
Government needs to take wildfires seriously.
    My own State of Nevada has experienced wildfires so severe 
that we have called upon FEMA for additional resources through 
the Fire Management Assistance Grant Program for fire 
suppression assistance seven times over the last 2 years alone.
    These wildfires have caused devastating losses to 
communities, and they have destroyed landscapes that can lead 
to flash flooding and mudslides, and that creates even further 
disasters.
    For example, the 2013 Carpenter fire just outside of Las 
Vegas, at Mount Charleston, led to severe flash flooding. It 
destroyed homes, businesses, wildlife habitat, and endangered 
the lives of residents and first responders.
    Benjamin Franklin said that an ounce of prevention is worth 
a pound of cure, and nothing could be further from the truth 
when it comes to dealing with wildfires. So, we need to invest 
in mitigation.
    Unfortunately, I do not think our President has taken this 
mitigation seriously. If you look at FEMA's Predisaster 
Mitigation Program budget, we see a proposed $39 million, but 
that's a $61 million cut from the current levels. That is not 
the way that we should be moving. We should be going in the 
other direction.
    The chairman and I agree on this need for mitigation 
investment. In fact, just last week, we joined nearly 80 of our 
colleagues urging the Appropriations Committee to support the 
Predisaster Mitigation Program. We just can't continue this ex 
post facto policy of borrowing.
    Apart from the budgetary issues, I would like to also hear 
today about how technology such as unmanned aircraft is playing 
an increasing role in our detection, monitoring, and response 
to fires, and how FEMA is working on that.
    Much of this research is playing out again in Nevada, which 
is one of the test centers for drone technology. We also have 
the Nevada Seismological Lab at UNR [University of Nevada, 
Reno] with their ALERTWildfire Program, so I would be 
interested in hearing more about what you're doing there.
    So, I look forward to learning more from our witnesses. I 
welcome them. We know that wildfires do not recognize 
boundaries, whether it is between States or communities. It 
should be a Federal issue. They cross over invisible lines. If 
we fail to address these kinds of issues, we will be missing an 
opportunity here.
    So, thank you all for coming, and I look forward to 
learning a lot this morning.
    I yield back.
    Mr. Ferguson [presiding]. Thank you.
    It is now my pleasure to recognize the ranking member of 
the full committee, Mr. DeFazio, for 5 minutes.
    Mr. DeFazio. Thank you, Mr. Chairman.
    This obviously is an extremely important topic, 
particularly as regards fire to those of us who live in the 
Western U.S. My home State had 664,000 acres burned last year. 
We have had $454 million on attack and extinguishing and some 
very preliminary restoration activities, and obviously, I don't 
think things are going to get better. We are having a very low 
snow pack this year, and with climate change, which some of us 
believe in, it is going to get worse.
    Now, we have a study, and you know, we do a lot of stuff 
around here that just does not make one iota of sense. So, we 
have a natural hazard mitigation study, that interim report, 
2017. We save $6 post-disaster for every $1 of predisaster 
funds that FEMA invests. I am not going to say ``spends,'' 
because these are investments, and yet, the staff of the 
President--I am sure he hasn't seen any of this--have proposed 
to cut that funding to $39 million.
    Now, they can say the deficit is $61 million smaller 
because we cut this wasteful program, except if the disasters 
happen, and they will, and using that same formula, we just 
have a paper savings of $61 million and the actual cost would 
be over $360 million to the taxpayers of the U.S.
    Now, the difference is we come up with a phony budget and 
this omnibus thing being negotiated behind closed doors--who 
knows what we will get for predisaster in there, but then when 
a disaster actually happens, we say, oh, the rules--they don't 
count. We are just going to borrow the money and we will do it 
afterwards.
    So, you can be fiscally responsible by cutting a program 
that can save a hell of a lot of money, potentially save lives, 
save property, but then, in the end, you are going to spend 
more, but that doesn't count, because we did that off budget 
with a supplemental emergency appropriation. Boy, is that dumb.
    We do other dumb things. We require that the U.S. Forest 
Service and BLM [Bureau of Land Management] pay for their own 
firefighting. Every year, they exhaust those budgets. Every 
year, they then begin to reduce other outlays for the fiscal 
year, including fuel reduction mitigation measures that they 
would take, leading us to more intense fires in the future, but 
somehow Congress, in its wisdom, has decided that floods, 
tornadoes, earthquakes, windstorms, et cetera, et cetera--those 
are all natural disasters that would go via FEMA and ultimately 
be paid for through an emergency supplemental, but nope, not 
forest fires, nope, they don't count.
    No matter how big, no matter how catastrophic, no matter 
what the losses--I haven't even seen--we will probably hear a 
number today from the Honorable Gorin about what the total 
losses are, I mean many billions of dollars, in addition to the 
lives lost. We have got to start making a little more sense 
around here, and hopefully, today will help lead us in that 
direction.
    Thank you, Mr. Chairman.
    Mr. Ferguson. I would like to thank the ranking member.
    Now, I am pleased to welcome our panel of witnesses today. 
I want to thank each of you for being willing to come and 
testify here, and at this time, I would like to call on 
Representative Denham to introduce our first witness.
    Mr. Denham. Thank you, Chairman Ferguson. I also want to 
thank Chairman Barletta and his continued leadership on these 
issues, and I want to thank and welcome Mr. Holly, deputy fire 
warden and deputy director of Emergency Services for Stanislaus 
County, California, my district.
    Mr. Holly brings with him 28 years of experience in fire 
service, most notably in coordinating the responses to and 
resources for large wildfire incidents, not only in the Central 
Valley but across our entire State.
    It is people like Mr. Holly on the ground that are the 
backbone of our response capabilities, and the coordination 
that we have between county and local jurisdictions makes us 
all much safer as a State.
    With the devastation that was caused by the 2017 wildfires, 
it is critical that we ensure our first responders and 
emergency managers have the support that they need.
    I know all too well, serving as chairman of this committee, 
how critical the issues of disaster preparedness, response, 
recovery, and mitigation are to survival of our communities and 
how frustrating I hear from each of you having to cut through 
redtape at a time of a disaster.
    That is why I was committed, in the wake of Hurricane Sandy 
back in 2013, to putting together key reforms to help speed up 
and streamline the recovery costs and reduce the costs, as 
well, and it is those exact reforms we passed in 2013 and made 
significant changes to the Stafford Act which actually helped 
us with the devastation that we saw last year.
    In November, we also saw an increase in incentives for 
mitigation. I introduced H.R. 4455, the SMART Rebuilding Act. 
We have got to be better prepared as we move forward. As we 
have seen in Mr. Carbajal's district, not only has his 
community been devastated by fires, but now, certainly facing 
the challenges of floods and mudslides, we need to make sure, 
as we are looking across the State and across the country, that 
we are better prepared with smart building codes and prepared 
for the different disasters that can hit us across the country.
    This was included as part of the budget agreement and now 
signed into law in February. The policy will improve the 
resilience of homes and businesses from fires and secondary 
events like floods and mudslides.
    There is much more we can do, not only focused on disaster 
mitigation but also predisaster mitigation. We need to continue 
to push FEMA to streamline and simplify its disaster assistance 
programs.
    You have heard from this committee many times, all 
disasters are local, which is why it is important for us to 
focus on a bipartisan level across the entire country on fixing 
so many of these different issues.
    Mr. Holly, I look forward to hearing your testimony. Thank 
you for taking the long trip across the country to join us 
today.
    Mr. Ferguson. Now, I would like to recognize Mr. Huffman to 
introduce our next witness, the Honorable Susan Gorin, who is a 
county supervisor for Sonoma County, California.
    Mr. Huffman.
    Mr. Huffman. Well, thank you, Mr. Chairman, and thanks, 
also, to our ranking member, Mr. DeFazio; our new subcommittee 
ranking member, Dina Titus; and all the Members who are here 
today for this important conversation, including our colleague, 
Salud Carbajal, from Santa Barbara.
    This committee has done good bipartisan work, especially 
the Disaster Recovery Reform Act, and so, I am glad we have a 
hearing today that will continue us moving forward with this 
momentum, hopefully seeing that bill through to passage, and 
toward that end, it is my great honor to introduce to the 
committee Sonoma County Supervisor Susan Gorin.
    This committee knows about the wildfires that devastated 
northern California last fall. From the Redwood Valley and 
Potter Valley complex fires in Mendocino to the Pocket fire in 
Geyserville, Tubbs fire in Santa Rosa, the communities I 
represent were devastated by these tragedies, and the witness 
we are going to hear from, Supervisor Gorin, will speak not 
just to the topline numbers we are all familiar with--5,000 
homes lost, things like that. Her own home was one of those 
homes swept through by the fire, and so, she is here to tell 
us, 5 months into the difficult process of rebuilding and 
recovering, how it is going from a firsthand perspective, what 
it means to a local community, what it means to local 
governments struggling to make ends meet in the wake of a 
disaster like this.
    Supervisor Gorin has been living in Sonoma County since 
1982. She is very much a product of our local colleges--Santa 
Rosa Junior College, Sonoma State University, and was elected 
to the Board of Supervisors in 2012. She is a great colleague 
of mine, and I am delighted that she was able to take the 
redeye and join us on the difficult journey east.
    Susan, welcome to Washington. Thank you for your testimony 
today.
    Mr. Ferguson. Today we are also joined by Mr. Robert 
Fenton, Jr., the Regional Administrator for region 9 with the 
Federal Emergency Management Agency; Mr. Mark Ghilarducci, 
director of the State of California's Office of Emergency 
Services; and Fire Chief Thomas Jenkins, president and chairman 
of the board of the International Association of Fire Chiefs.
    I ask unanimous consent that our witnesses' full statements 
be included in the record. Without objection, so ordered.
    For our witnesses, since your written testimony has been 
made part of the record, the subcommittee would request that 
you limit your oral testimony to 5 minutes.
    Administrator Fenton, you may proceed.

TESTIMONY OF ROBERT J. FENTON, REGIONAL ADMINISTRATOR, FEDERAL 
   EMERGENCY MANAGEMENT AGENCY; MARK GHILARDUCCI, DIRECTOR, 
 GOVERNOR'S OFFICE OF EMERGENCY SERVICES, STATE OF CALIFORNIA; 
  HON. SUSAN GORIN, FIRST DISTRICT SUPERVISOR, SONOMA COUNTY, 
 CALIFORNIA; ERIC W. HOLLY, DEPUTY FIRE WARDEN/DEPUTY DIRECTOR 
OF EMERGENCY SERVICES, STANISLAUS COUNTY, CALIFORNIA; AND FIRE 
  CHIEF THOMAS JENKINS, PRESIDENT AND CHAIRMAN OF THE BOARD, 
            INTERNATIONAL ASSOCIATION OF FIRE CHIEFS

    Mr. Fenton. I want to start off by thanking Chairman 
Barletta for having this session today, and thank you, 
Congressman Ferguson, Ranking Member Titus, and other 
distinguished members of the subcommittee.
    My name is Robert Fenton. I am the Regional Administrator 
for FEMA region 9, located in Oakland, California.
    It is my pleasure here today to discuss with you FEMA's 
experience with wildfire operations and discuss how we plan for 
and mitigate against the growing risk from wildfires.
    We used to think fire season ran from spring through early 
fall. However, in recent years, we have seen that is no longer 
the case. Fire season is now all year long, taxing the wildfire 
system, the agencies that make up the Nation's emergency 
management system, and the communities that are threatened by 
fires.
    As we saw in recent disasters, wildfires that affect 
concentrated urban populations such as Santa Rosa and Ventura, 
California, can stress the emergency management capabilities 
and cause catastrophic damage.
    Let me share a few statistics compiled by my colleagues at 
the California Department of Forestry and Fire Protection that 
highlight the changed fire risks.
    The years between 2012 and 2015 were the driest period in 
California's history. In sharp contrast, the following winter 
of 2016 was one of the wettest periods.
    The winter fostered excessive vegetation, which grew into 
kindling but did not change the overall dry conditions in the 
forests and watersheds.
    In 2017, more than 9,000 fires burned approximately 1.2 
million acres of land, well ahead of the 5-year average.
    While 2017 has ended, the impacts of the unprecedented fire 
season will continue for years to come. The question I am sure 
you are asking yourselves is how can we plan for this type of 
disaster in the future? The wildfire season has reinforced what 
we know. Building more resilient communities is the best way to 
reduce risks to people, property, public budgets, and the 
economy.
    I cannot overstate the importance of focusing on investing 
in mitigation before disaster strikes. Developing capacity 
before an incident occurs reduces the loss of life and economic 
disruption.
    When communities are impacted, we want to see rebuilding 
that is safer, smarter, and stronger, but there are significant 
challenges that property owners and communities face in 
pursuing resilience.
    For that reason, FEMA Administrator Long is calling for a 
change in the cycle of opportunity, to move mitigation 
investment to the front of the disaster cycle, not at the end, 
where it typically lies.
    FEMA is working with Federal, State, local, Territorial, 
Tribal, and private sector partners to help align predisaster 
and post-disaster mitigation investments to more effectively 
reduce disaster loss and increase resilience.
    FEMA manages the Hazard Mitigation Grant Program, the Flood 
Mitigation Assistance Grant Program, and the Predisaster 
Mitigation Grant Program that funds projects such as seismic 
retrofits, defensible space, safe rooms, and risk reduction for 
utility and other infrastructure.
    These funds play a critical role in building resilient 
communities by reducing the risk of future disaster loss. 
Effective wildfire mitigation projects include defensible space 
measures, ignition-resistant construction, and hazardous fuel 
reduction efforts.
    From a preparedness perspective, FEMA continues to maintain 
and strengthen the National Preparedness System by helping our 
non-Federal partners build their capabilities, which will 
reduce the reliance on the Federal Government in the future.
    Together, we are working to achieve the National 
Preparedness Goal of a secure and resilient nation with the 
capabilities required across the whole community to prevent and 
protect against, mitigate and respond to, and recover from the 
threats of hazards that pose the greatest risk.
    FEMA is focused on promoting integrated mutual aid across 
the whole community, continuing the development of the national 
qualification system for first responders, and advancing a 
national training and education system and a national exercise 
program to prepare responders and officials for disasters.
    While we may never be able to completely eliminate risk, we 
must do our best to mitigate against it. FEMA continues to work 
with communities to reach that goal.
    By far, the 2017 disaster season was one of the busiest for 
FEMA. However, I would like to acknowledge that FEMA did not do 
this alone. Disasters pose many challenges at all levels of 
Government.
    The State of California has done an extraordinary job of 
building the emergency management capabilities and coordinating 
local and State-level response and recovery efforts. Their 
leadership and heroism continue to be instrumental in helping 
survivors.
    Additionally, we had the support of many Federal 
departments and agencies, including the U.S. Fire 
Administration, U.S. Army Corps of Engineers, U.S. EPA, and the 
Small Business Administration, among many others from DHS, and 
I would also be remiss if I did not mention the congressional 
Representatives in California that were personally involved in 
every phase of the disaster and the critical role they played.
    Going forward, there are many more opportunities to work 
together with our partners to identify solutions.
    I look forward to your questions today. Thank you.
    Mr. Ferguson. Mr. Fenton, thank you for your testimony.
    Mr. Ghilarducci, you may proceed.
    Mr. Ghilarducci. Good morning, Chairman, and members of the 
committee. I am Mark Ghilarducci, director of the Governor's 
Office of Emergency Services in California.
    It is really a pleasure to be with you here today and give 
you some perspective on, really, the challenges that we have 
been faced with over the last couple of years.
    I think, to provide some context, clearly to understand 
that, really, California, coming out of 6 years of extreme 
drought conditions--and when I mean extreme, these are all 
record-setting conditions that have impacted the entire State 
of California, and within that 6-year period, having to deal 
with some relatively extreme wildfire activity that we saw as 
sort of precursors to what the potential could be if these 
extreme conditions continued to grip California throughout the 
coming years.
    After the 2015-16 season where we had drought and severe 
fires, the conditions changed and we dealt with a lot of water, 
a lot of rain at one time that ended up in catastrophic 
flooding.
    Throughout the State, we had 52 of the 58 counties under 
Federal disaster declaration, and all of that flooding and that 
response, I put in context, because all of the resources that 
we have in California were already tasked and taxed in 
responding to these various events.
    The floods that we had, of course, presented and prepared 
for a new crop of flashy fuels that made the conditions much 
worse, and moving into October, then, which was later in the 
season, at a time when you think that things are starting to 
cool down and slow down, we started to get red flag or what we 
call fire weather conditions in the northern part of the State, 
which are typically very, very dangerous and don't happen that 
often, but when they do, perk everybody's attention, and sure 
enough, early in the morning on October the 8th, we had fires 
break out in eight different counties.
    The wind conditions were such that we had up to hurricane-
force winds, winds exceeding 100 miles an hour, sustained for a 
long period of time, and in fact, in a 12-hour burning period, 
when it was all cleared, we had lost over 8,900 homes and 
businesses in a 12-hour period.
    This was eight counties, including the fire that came over 
through Napa, down into Sonoma, crossed eight lanes of improved 
highway, into a community that had nothing to do with the with 
the WUI [Wildland Urban Interface] but was in a fire corridor 
that resulted in the loss of over 1,000 homes just in that one 
community of Coffey Park.
    Overall, the Tubbs fire, which is the one that--you know, 
one of these fires that impacted Sonoma and Napa, really 
surpassed what our previous large fire was in California that 
took a great number of homes, and that was the Oakland Hills 
fire in the 1990s.
    Throughout this process, our Mutual Aid System was really 
stretched, but we do have a tremendous mutual aid capability, 
and while they were dealing with the cascading impacts and, 
really, the enormity of the northern California fires, of all 
of these homes and these people that had been devastated, the 
fire weather continued.
    The extreme weather conditions that we had not seen before 
continued to take hold of the State and moved from a northern 
posture to a mid-part of the State to southern California, and 
on December the 10th, we had southern California--all the 
counties of southern California, all the way up to the middle 
part of the State, under red flag conditions.
    The humidity levels were in single digits, the winds were 
significant, and sure enough, we started getting fires that 
broke in Los Angeles and San Diego and in Ventura, the first 
one being in Ventura, which burned for many, many days and 
turned out to be the Thomas fire, now the State's largest fire 
in its history as far as acreage is concerned, and that fire, 
beyond burning an additional 1,000 homes in Ventura, went up 
into the town of Ojai, button-hooked around that, and then came 
down on top of Santa Barbara.
    The key thing is, above Santa Barbara and Ventura is the 
Los Padres National Forest, so a lot of trees, a lot of 
watershed that is critical--critical--to not only being able to 
address the capture of rainwater when it rains but also for the 
environment and all the other things that go along with that.
    This fire was so hot and burned so extremely that literally 
it denuded the entire landscape of that Los Padres National 
Forest--what we call the front area, and completely wiped out 
that area.
    That then set up another dynamic that we had a rainstorm 
come in and it resulted in catastrophic floods and mudflows in 
Santa Barbara, in Montecito, that claimed an additional 22 
lives.
    So, 44 lives in the northern fires, 22 lives in the 
southern fires and in the southern mudflow, and the requirement 
of all the resources that were necessary--we had over 10,000 
firefighters. We had 400 local engines from our mutual aid 
program, 200 out-of-State engines--and I can't thank those 
surrounding States enough. We even brought in 33 firefighters 
from Victoria, Australia, under an agreement we had.
    At the highest level, we established a unified coordination 
group, which really set the overarching priorities for 
coordination of this, and included FEMA, which, by the way, 
FEMA--we could not have done this without a great partner, 
FEMA, and they have been with us lockstep, and I can't say 
enough about all of their efforts.
    Mr. Ferguson. Thank you, sir, for your testimony.
    It is now my pleasure to recognize Supervisor Gorin.
    You may proceed.
    Ms. Gorin. Thank you so much. I want to thank the 
leadership of this committee and the subcommittee for their 
work that they have previously completed on the disasters that 
have faced our Nation in totality.
    I grew up in western Pennsylvania, but I have lived in 
Boston, Colorado, and certainly California. I have been 
prepared for horrendous snowstorms, nor'easters, tornadoes, 
hailstorms, and earthquakes, but nothing prepared me for the 
devastation that I experienced in my district and in my county 
in October of last year.
    I want to really thank all of my colleagues on this panel, 
because without their help every step of the way, we would not 
have moved forward through recovery and resiliency that we are 
in the place today.
    I especially want to thank Congressman Huffman and 
Congressman Thompson, who have been with us, and the Governor 
was there, and our State senators. It is very important for the 
local community to see that you and our local elected leaders 
understand what we are facing, and as you've described, in some 
of your districts, you do, indeed, understand what we have 
faced and what you have faced.
    I want to deviate from my testimony a little bit. Mr. 
Ghilarducci really talked about the stress and strains and the 
magnificent performance of the mutual aid firefighters and 
first responders throughout the western part of the Nation and 
other States, and it still warms my heart when I see signs in 
the communities that have been ravaged by the fires to say 
thank you to the first responders. Without them, we would 
probably still be here today trying to face an uncertain 
future--that and the rains, the rains really helped out, and 
our heart goes out to Santa Barbara.
    We could have been that community facing the mudslides. We 
were spared the torrential rains, and our army of volunteers 
and county organizations placed wattles everywhere around our 
disaster areas.
    As you know, that evening, the firestorms overtook Sonoma 
County with the ferocious winds. It was staggering to me that, 
almost 50 years to that date, the same patterns of fire 
overtook Sonoma County, and what happened in the Hanly fire 50 
years ago, took a couple of days to transport themselves across 
the county line and move into the neighborhoods, took less than 
12 hours to totally devastate neighborhoods.
    I come to you as a supervisor but also someone, as 
Congressman Thompson said, lost not one but two homes, the home 
that I lived in in the Fountaingrove area for 20 years--that 
was lost--didn't own it now, but the home that I lived in in 
October, certainly did lose. I lost it 2 days later, and that 
is really talking--speaking to the long sustaining nature of 
the firestorms.
    It just wasn't that night; it was a week and a half or 2 
weeks where homes continued to burn, but CAL FIRE pulled out 
the maps and knew where the dozer lines were going to go and 
held the line, and eventually those fires were contained.
    I want to put a personal slant on it. For those who have 
never lost a home, you see in the debris and the ashes 45 years 
of life, of marriage, of family history, family photos, the 
ironing board sticking up in the ashes, and realizing you need 
to purchase every single item that you lost in the home.
    It is overwhelming, both from a grief and a time 
perspective, and you magnify my experience and my husband's 
experience times 5,000 or more, and you get some scale of the 
needs of our community.
    Quickly, I want to really talk about community warning 
systems. Many of our residents lost their lives--sadly, we lost 
24, but many fled their homes in terror in their bare feet. 
They were awakened in the middle of the night, losing power, 
not able to get their cars out of the garage. They lost 
everything, and they were so fortunate, the firefighters picked 
them up, and I include that the president of Sonoma State 
University as one of those who fled in the middle of the night.
    We absolutely need robust, effective, and redundant alert 
systems that will not fail when the cell towers and the 
landlines come down.
    Secondly, disaster preparedness. Often our community 
members survived because their neighbors knocked on the door or 
telephoned their friends a couple of blocks away. We need to 
prepare our community, as you just talked about, for the 
unfolding disasters in the future.
    I come from a community that is absolutely prepared. In 
fact, someone knocked on my door to alert me to the evacuation 
that night. The CERT [Community Emergency Response Team] 
program and the COPE [Citizens Organized to Prepare for 
Emergencies] program are absolutely essential in preparing a 
community and a population for future disasters.
    Disaster mitigation. Thank you so much for your support in 
disaster mitigation. We have a number of requests in, because 
we are committed to preventing and arming ourselves with the 
tools to survive future disasters. They have come before; they 
will come in the future.
    And one final note. We desperately need funding, flexible 
funding for housing, and economists predicted we need 17,000 
construction workers to rebuild not only the lost homes but to 
build the housing that we needed on the Saturday before the 
fire.
    We need money for construction pathway programs and money 
to build housing to house the construction workers. This is of 
a scale that we have not contemplated in the past, and we are 
certainly painfully contemplating now and in the future.
    Thank you so much for your work, and we appreciate all that 
you are bringing to this issue.
    Mr. Ferguson. Thank you, Supervisor, and we appreciate your 
testimony.
    Mr. Holly, you may proceed.
    Mr. Holly. Good morning. Thank you, again, for the 
invitation. I'm Eric Holly, I'm the deputy fire warden and the 
deputy director of Emergency Services for Stanislaus County. In 
addition to my normal day-to-day activities, I'm also our fire 
and rescue operational area coordinator, as well as the 
Emergency Management Mutual Aid, or the EMMA coordinator for 
Stanislaus County.
    A little bit about our county, we are in the Central 
Valley, the southern portion of California's Mutual Aid System, 
or region number four. Within Stanislaus County's operational 
area is the Diablo Mountain Range in the western portion, and 
the foothills of the Sierra Nevada is in the eastern portion of 
the county.
    There are just over 500,000 people in our county. We do 
have 21 separate fire agencies that provide some sort of fire 
protection within our county. Of those agencies, some are fully 
paid, there are some combination departments and there are some 
fully volunteer agencies. Each agency will participate at some 
level in the California Fire and Rescue Mutual Aid System.
    During the times of emergencies and disasters, I'm 
responsible for coordinating the local agency responses from 
Stanislaus County to those incidents. And as part of the 
California Office of Emergency Services, Cal OES, Fire and 
Rescue Mutual Aid System and EMMA systems, in the past years 
alone we've provided fire engines and individuals to wildfires 
statewide: from the border of Mexico all the way up to Oregon, 
to the State of Washington, the State of Montana, and recently, 
to Puerto Rico for Hurricane Maria.
    We send people, from firefighters to law enforcement to 
emergency medical services, animal services, public works, 
building department, public health, and county administration 
departments. This year, Stanislaus County agencies continue to 
support the Master Mutual Aid System; however, as in years 
past, we have found that we've been unable to fill some of the 
requests that we've had.
    We're only able to assist so much before we have drawdown 
of our own resources to exhausting levels, and we've found 
ourselves turning down more requests each year for that reason. 
Some of our agencies that have had full-time paid firefighters 
have had to reduce staffing and close fire stations due to lack 
of funding. Volunteer agencies have had trouble keeping 
staffing levels up for years, and what staffing they do have 
fluctuates with the season.
    Most of our rural volunteer agencies are in agricultural 
areas, so during seasons like the harvest season and other 
specific times of the year, many volunteer firefighters are 
committed to their farms and ranches, and have limited 
capabilities to respond to calls for service within their own 
district, let alone being sent out to the large wildfires.
    Even with these challenges, our counties have been able to 
put fire equipment on the road in times of need, and when large 
wildfires start, county operational area coordinators, using 
our contiguous counties, we get together and we start pooling 
our resources to see what we have. And if we only have a few, 
we marry them up with other resources from other counties.
    Over the recent years, Stanislaus County Operational Area, 
which is our county, it includes our fire apparatus and 
individual personnel who have assisted with the operations and 
management of these large wildland fire incidents. At times, we 
don't have enough of the equipment or trained personnel in our 
county to fulfill those requests. And when this occurs, that's 
when we start reaching out to our neighbors.
    We're doing all of this as the fires are beginning, as the 
fire weather starts to come up, and it's at that local level to 
do that preparedness. We continue to work locally with State 
and Federal agencies on mitigating local hazards through 
planning and educating the public, training, and exercising for 
all hazards.
    Through Federal grant funding, we have been able to assist 
our nine cities within our county with mitigation planning, the 
goal of which is to meet those core capabilities of national 
preparedness. The devastation of the wildfires can cripple a 
community, leaving it vulnerable to secondary-type events, such 
as the landslides that we saw.
    For our county, weed abatement and fuel reduction is an 
ongoing task, and each year we spend numerous hours identifying 
and notifying property owners of hazardous situations. It's 
time-consuming. We constantly struggle to keep up with the 
requests from the public regarding fire hazards. With all the 
responsibilities that our fire agencies have, they just don't 
have the staffing to do it on a proactive stance.
    Public education has some of the same areas of concern. 
Staffing challenges and funding for the education programs 
continue to be a concern. When agencies have staffing issues 
for emergency response, public education and mitigation 
suffers.
    It's important to remember that we need to invest our money 
and our resources, as you said, upfront. Investment in creating 
emergency plans, mitigation programs, and public education will 
save lives, property, and the environment. Increasing staffing, 
or prepositioning fire equipment during Red Flag Warnings or 
other high-probability events likely lessen the likelihood of 
incidents growing into major incidents.
    Our operational area did not have a major wildland fire in 
2017, and it very well could have. We will. We are like many 
other counties, and we feel lucky that we were not affected 
this last year. But we continue to try to be prepared as best 
as we can for these incidents.
    Most agencies in our county have received, at some point or 
another, some funding through Staffing for Adequate Fire and 
Emergency Response Grants or the AFG Grants, the Assistance to 
Firefighters Grants. These have helped with communications 
equipment for interoperability, which has allowed our agencies 
to actually respond outside of our county.
    We must continue to emphasize education and training to 
strengthen our ability to respond safely and effectively, 
locally and statewide to wildland fire events. Without properly 
well-maintained equipment, we would be unable to assist. There 
are many pieces of the puzzle, and without them, our statewide 
response would be hampered.
    Thank you again for your time.
    Mr. Ferguson. Thank you, Mr. Holly.
    Chief Jenkins, you may proceed.
    Mr. Jenkins. Good morning, acting Chairman Ferguson, 
Chairman Barletta, Ranking Member Titus, and members of the 
subcommittee. I'm Tom Jenkins, fire chief for the city of 
Rogers, Arkansas. I also serve as the president and chairman of 
the board for the International Association of Fire Chiefs. The 
International Association of Fire Chiefs represents the 
leadership of America's fire and emergency medical services 
agencies.
    We appreciate the opportunity to testify today about the 
impact of the 2017 wildfires that affected our great country. 
Local fire departments, many of whom you may realize were 
volunteer fire departments, provided nearly 80 percent of the 
initial attack on those fires. The IAFC is concerned about the 
escalating cost and damage caused by these wildfires.
    According to the National Interagency Fire Center, there 
were approximately 71,500 wildland fires reported last year. 
They burned, as we heard earlier, nearly 10 million acres. This 
was an increase of more than 80 percent over the amount of 
acreage burned in 2016. In addition, 2017 was a record year in 
which the Federal Government spent $2.9 billion on wildland 
fire suppression. This amount was approximately 84 percent more 
than the $1.6 billion spent in 2008. Our Nation cannot continue 
to absorb these growing costs.
    We agree with the committee's interest in reducing the cost 
of natural disasters. The International Association of Fire 
Chiefs supported the Disaster Recovery Reform Act, H.R. 4460, 
which incentivized States and localities to take steps to 
mitigate the risk of disaster. For wildland fires, the IAFC 
supports the national cohesive wildland fire management 
strategy. Our association is especially focused on promoting 
community preparedness, improved response capability, and, of 
course, mitigation.
    The IAFC encourages localities to develop community 
wildfire protection plans. These plans identify and then 
mitigate wildland fire risks. They also can guide Federal 
hazardous fuels reduction projects and prioritize the use of 
Federal funding.
    The IAFC's own ``Ready, Set, Go'' Program is designed to 
promote community preparedness. It's a partnership with the 
USDA's Forest Service. ``Ready, Set, Go'' helps communities 
develop mitigation plans--Ready; teaches them to be 
situationally aware--Set; and then act early following personal 
wildland fire action plans--Go.
    As partners with other community organizations, ``Ready, 
Set, Go'' fire departments and fire districts engage in 
activities including webcasts, fuel reduction, youth outreach, 
civic events, home assessments, and door-to-door smoke alarm 
campaigns. Currently, there are 1,803 ``Ready, Set, Go'' 
members in all 50 States.
    An effective response is key to controlling the cost of 
wildfires. The IAFC believes that there is a need for well-
vetted qualifications based on the National Wildfire 
Coordinating Group's publication, NWCG 310-1, for response 
staffing, and resources. However, we also support efforts to 
recognize prior learning and structural firefighting skills for 
wildland firefighting duties.
    Our association is also leading efforts to improve mutual 
aid agreements in the response to wildland fires. Fire 
departments depend on assistance from neighbors, and oftentimes 
other States, to assist during major fires. The National Mutual 
Aid System was designed by the IAFC, Intermedix, and ESRI to 
help departments visualize in real-time where resources are and 
improve decisionmaking when deploying them.
    Delayed reimbursements of fire departments is an obstacle 
to effective fire response. The reimbursement process can take 
months or even years. Until reimbursement, a local fire 
department must do without. This delayed reimbursement cycle 
can reduce a fire department's ability to participate in future 
mutual aid requests.
    The IAFC also asks Congress to continue to support 
mitigation activities. We ask Congress to make permanent 
recently passed legislation that allow States that receive Fire 
Mitigation Assistance Grants in fiscal years 2017 and 2018 to 
receive hazard mitigation assistance. This assistance will help 
communities reduce the risk of flooding and landslides that we 
saw in California in January.
    The growth of wildland fire across this Nation is a clear 
and present danger to our citizens. America's fire chiefs look 
forward to working with the committee to promote community 
preparedness, ensure effective responses to these wildfires, 
and support mitigation efforts to reduce the risk of fires and 
ensuing floods and landslides. I look forward to answering any 
questions that you may have. Thank you.
    Mr. Ferguson. Thank you, Chief Jenkins, and I would be 
remiss if I didn't say to both you and to Mr. Holly thank you 
for your service as first responders and to the men and women 
that you serve with.
    And to Supervisor Gorin, I understand, I was a mayor prior 
to deciding I was tired of being happy and running for 
Congress. But in all seriousness, it is so remarkable to me the 
partnerships that you have to have with your other stakeholders 
in there, and I know that the coordination that goes into it 
requires an awful lot of time and commitment.
    So thank you for doing that at the local level, and let me 
echo some of the words of my colleagues here. I'm so, so sorry 
for the loss of your homes in those devastating fires. In 2017, 
as you know, we saw many communities and regions and entire 
States that were truly shattered by these natural disasters, 
and certainly what's happened out in California has just been 
absolutely devastating.
    And so I think it's very important that we examine what has 
happened, learn from that, and then allow this body to help 
guide the conversation forward to make sure the local 
communities and States have the resources that they need not 
only to deal with the aftermath, but in my opinion, more 
importantly, deal with what happens before.
    And I also want to take a minute to thank Chairman Barletta 
for continuing to champion this critical issue, and it's 
something that has been very important to him, and I think we 
want to recognize his leadership here.
    With that, I'm going to reserve my questions for the end, 
and I am now going to recognize the ranking member, Ms. Titus.
    Ms. Titus. Well thank you very much. If I could ask you, 
Mr. Fenton, I would like to follow up on some things that 
Ranking Member DeFazio mentioned in his opening statement.
    Last week when FEMA issued its 2018 to 2022 strategic plan, 
there was no mention of climate change, it just failed to 
mention it altogether. And it also removed references to 
climate change that had been included in the previous 2014 to 
2018 strategic plan. I wonder if the administration believes 
that climate change is real, and how you think we can prepare 
for natural disasters if we don't acknowledge that it's a 
significant factor in the cause of those disasters.
    Mr. Fenton. I represent region 9. I can't speak for either 
what Brock Long's beliefs are or this administration's beliefs; 
however, I think in my opening testimony, I testified to the 
part--to the extent of how fire season in California has 
changed over the years. And it's significantly changed, 
including not only the driest years on record as Mark 
Ghilarducci, the State director, had talked about, but also the 
wettest season.
    So we're seeing changes in the climate in California that 
have caused a significant fire season, which continues--a 
prolonged one, which is not only seasonal anymore, but it goes 
year round. So we are seeing changes that are impacting 
California with regard to impacts on the environment, plus 
building into urban areas where it increases the threat and 
risk of homes in those areas.
    Ms. Titus. Do you think you're going to be able to do your 
job, or FEMA overall will be able to with the proposed about 
$70 million cut in the budget?
    Mr. Fenton. Well I understand that in building a budget, 
there have to be priorities in building a budget. And, you 
know, the administration has made its decision on those 
priorities and where to take those cuts. Right now, I have the 
resources that I need in order to do my job as a Regional 
Administrator, both with the Disaster Relief Fund and funding I 
have annually to ensure that we're trained and exercised and 
ready to respond to disasters.
    One of the areas that I think we need to focus on is how to 
move more of the predisaster mitigation upfront so that we 
could take action prior to disasters and not take action after 
disasters to better protect and build resiliency into the 
communities and infrastructure.
    Ms. Titus. Well, that, kind of, leads me to my second 
question. What I mentioned in the opening statement was some 
interest in the use of unmanned aerial systems. I'm wondering 
if you could comment on any barriers that exist with FEMA's 
budget or making the acquisition or use of those eligible for 
grant money, anything we can do to facilitate that, and then 
maybe some of our first responders could comment if that would 
be helpful or not.
    Mr. Fenton. I'm not aware of barriers. I could get back to 
you in writing with regard to the specific grants and what's 
available and what could be purchased. But I would say that we 
heavily use unmanned aerial vehicles during these fires to 
provide information not only during the fires, but accessed 
resources through Department of Defense National Guard to do 
things that we've never done before.
    One of the things that we did is we used National Guard 
platforms to do assessments of the fires so we could make 
decisions on the declaration. Plus the firefighters used it to 
establish perimeters and make decisions on where to fight the 
fire and build defenses at.
    In addition to that, we're using it right now to re-map 
using lidar systems to remap watersheds that were impacted from 
these fires and better prepare for the post-event floods that 
have happened down in the southern California area, and are 
preparing this week for the events that may happen due to the 
rain that's oncoming this week.
    Ms. Titus. Gentlemen?
    Mr. Holly. Just speaking to the local level, we do have a 
few agencies within our county that have some UAVs. Those 
agencies are the paid agencies in our county. They're strictly 
using them now for reconnaissance on hazardous material spills 
as well as some of the areas that are not really wildland, 
where we wouldn't have aircraft working, but in large fields or 
in river bottom areas.
    They're very much at the beginning stages of it, but 
they're starting to use them and they are showing some good 
usage with them.
    Mr. Jenkins. That's an excellent question. Our association 
has championed the issue: We recognize that--while conventional 
methods to suppress fires work--that the use of technology to 
try to gain information, whether that's reconnaissance, is 
important.
    But information gathering at the incident command post is 
only going to aid whether we're making decisions about 
evacuation or offensive strategy, and so we are believers in 
technology, specifically unmanned aerial devices, and we 
continue to encourage their use as appropriate by local fire 
departments and jurisdictions.
    Ms. Titus. I would like, first, to be sure that there 
aren't any barriers in any of the grant programs that keep you 
from using those to acquire some of this technology, so maybe 
we can check into that.
    Just one other question. It's always been a concern to me 
about the animals in wildfires. And people often will not leave 
their pets, or then what do they do with their pets? I have the 
Animal Emergency Planning Act to try to get FEMA involved in 
that.
    I wonder if you would talk about, Mr. Fenton, what FEMA 
does to encourage local communities to plan for animal 
evacuation or care, or how they encourage people--what to do 
with their pets? Because if they stay behind for the pets, not 
only are you going to lose the pets, you may lose the people as 
well.
    Mr. Fenton. Following Hurricane Katrina, FEMA's done a lot 
of work to not only build in caring of pets and evacuation of 
pets into the National Response Framework, but more 
importantly, have worked with State and local governments to 
ensure that we plan for and build the capacity to be able to 
care for and evacuate pets during a disaster.
    California has done a remarkable job on it. I'm sure that 
Director Ghilarducci can talk to some of the things they did in 
this disaster from not only where we both went and saw 
firsthand where firefighters came to protect pets down in 
southern California at a zoo facility, to opening up some of 
their local fairgrounds to receive pets during a fire so that 
they could go ahead and care for them, and having that process 
set up beforehand so that people could move them to those 
locations where they would be safe.
    It's important to have those plans prior to the events, and 
California has done a tremendous job in having those systems 
ready.
    Ms. Titus. I would like to see all the States encouraged to 
do that as well as California.
    Mr. Fenton. Yes, ma'am.
    Ms. Titus. Thank you, Mr. Chairman. I yield.
    Mr. Ferguson. OK, thank you. Next, I'll recognize the 
gentleman from California, Mr. Denham.
    Mr. Denham. Thank you, Mr. Chairman. Mr. Holly, you talked 
in your opening statement about the operational area and 
coordinator responses between multiple counties and strike 
teams.
    Can you describe, from a county level, the internal 
decisionmaking process you go through on whether or not you are 
going to put equipment and teams into a different area of the 
State and the coordination that goes along with that?
    Mr. Holly. Certainly. At the local level or at the 
operational or county level, when we hear of fires starting 
throughout the State, we start to coordinate within our county 
by making phone calls to those local fire chiefs to see their 
availability. A lot of it has to do with personnel, with their 
equipment, if it is ready to go and then the length of time 
that it's expected for that equipment to be gone.
    As we do that, we are also in contact with our contiguous 
counties and talking with them to see what their availability 
is so that, as the orders come in, for strike teams or task 
forces to go out to these fires. We can piecemeal things 
together if we don't have enough resources. We have to look at 
our county. We have to look at any large incidents that might 
be occurring, any predicted events that may be coming up or the 
weather that is in our county as well, protecting what we have 
before we can send out more to other wildland areas.
    Mr. Denham. Thank you. And we talk a lot in this committee 
about being prepared and resiliency. We passed the SMART 
Rebuilding Act here recently, which will incentivize important 
building standards as we move forward. But one of those issues 
is certainly the fuel that goes with the fire. That is a lot of 
the vegetation, a lot of the growth. I wonder if you could 
describe what you think could better encourage important 
activities on taking away some of that fuel.
    Mr. Holly. So our county, on both sides, we have some of 
the State responsibility area, which is we have fire districts 
that partner with CAL FIRE. They have a very robust system and 
a program for mitigation of the fuels. A lot of it has to do 
with annually going in and taking down some of the new growth 
that comes up where you can have some high fire-prone areas.
    And the center portion of our county is where most of our 
rural agricultural areas are. We do have some issues with weed 
abatement throughout the year and the staffing of those 
voluntary agencies and getting people out to actually make 
contact with those agencies. It is a struggle every year, and 
we have seen that, you know, with the building codes that we 
have had and the new resolutions in California for the 
defensible space, it has helped. But there still needs to be 
more done with the public education portion of it, I believe.
    Mr. Denham. Thank you. And Mr. Ghilarducci, I've 
appreciated the opportunity to work with you on some of these 
disasters and the quick response that we've seen from the 
Governor's team. One of the big questions that continues to 
come up as we are trying to rebuild major infrastructure, 
especially in the north part of the State where we've had a 
number of conversations about how do you get trucks in and out, 
debris in and out, how do you fix the bridges in a very, very 
quick fashion, we passed the NEPA Reciprocity Act, which not 
only allows for quick environmental review but allows us to 
streamline the process.
    Now California has the opportunity to apply for section 
1309 under the FAST Act. The question is will your department 
and the Governor take advantage of that and move to quickly 
expedite those projects?
    Mr. Ghilarducci. That's a good question. Thank you, 
Congressman. I think that the section 1309 is in the area that 
we are looking at, and we will leverage and maximize it to the 
advantage of the community. You know, the debris operation in 
the case of the North Bay fires really was an unprecedented 
event.
    You know, today, we've moved over 1.6 million tons of 
debris. In context, that's two Golden Gate Bridges, if you can 
get a sense of how much debris that is. And we've done that all 
in a period of about 5 months, which is an unprecedented work 
pace in addition to the work that we're doing in southern 
California. And the idea is to be able to get those communities 
as clean and clear as possible so that the rebuilding can start 
but not just rebuilding starting in those areas. Have a very 
serious policy discussion.
    Mr. Denham. Let me just--I have only got a little bit of 
time left. Let me be succinct about this. NEPA Reciprocity Act 
right now has a 2-year review process. We'd like to shrink that 
down to 180 days. We'd like to see if the Governor is going to 
be supportive of that, especially, you know, we see the 
Governor as supportive of waiving CEQA [California 
Environmental Quality Act] for football fields and, you know, 
we saw Pac Bell Park by a previous Governor. We waive CEQA all 
the time. I would think it would be very important to 
streamline NEPA/CEQA in the case of communities that have been 
devastated and we want to rebuild real quick.
    Mr. Ghilarducci. Yes.
    Mr. Denham. So it should be a very simple answer, and I 
would hope the Governor would work with us on changing that.
    Mr. Ghilarducci. We are looking at that----
    Mr. Denham. Thank you.
    Mr. Ghilarducci [continuing]. Congressman.
    Mr. Denham. Yield back.
    Mr. Ferguson. Thank you. Now recognize Mr. Huffman.
    Mr. Huffman. Thank you, Mr. Chairman. And as I look at this 
panel, I see this great team of firefighters, local government, 
Cal OES and FEMA. And this is part of the story that I think we 
can celebrate as a success despite the tragedy that visited our 
communities. I saw many of these folks every single day during 
the worst of the wildfires. They work together seamlessly. The 
resources that were mobilized from around the Western United 
States with firefighters streaming in prison crews from 
neighboring States were impressive. There is a lot about this 
system that actually does work, and we are grateful for that, 
and we learned it firsthand.
    But a lot of our--when we talk about how we can do better 
going forward, we do need to continue this focus on predisaster 
strategies. And so I want to ask our witnesses about that. And 
Supervisor Gorin, you did touch on the Emergency Alert System 
and warnings. We saw a lot of folks who lost their lives, 
unfortunately, in our region. And many of those were vulnerable 
populations, many elderly who didn't get word or even, in some 
cases, were trying to get out but couldn't. The power was out. 
They couldn't open their garage doors, and we saw folks who 
lost their lives in their cars, in their garages.
    I'd like to hear your thoughts on predisaster planning and 
strategies that can help us with the evacuation of vulnerable 
populations. And then, also, on the telecommunications piece of 
this, we've seen, after these disasters--you know, we can set 
up wireless hotspots, mobile cell sites, charging stations, all 
these things that help, but what can we do to have a more 
robust system proactively in advance of these things?
    Ms. Gorin. This is a very astute question because that is 
exactly what led to the number of houses lost and the number of 
lives lost. We are looking at redundant and robust alert 
systems in the future using, perhaps, the Lake Tahoe system of 
very tall poles with cameras on it. We could have seen the 
arcing of the wires and the flash of the fires in Napa County 
when they first started. And we could have brought in air 
resources to suppress those fires at the very beginning. And 
this is what many counties were able to accomplish.
    But the erratic winds that we experience drove those fires 
so fast and so furiously, quite frankly, the cloud cover was so 
thick that we couldn't get in. Hopefully I am describing this 
correctly. We couldn't get in the air support to suppress the 
fires. So we absolutely need the lidar and the smoke-
penetrating devices to know where the fires are and how to 
suppress them.
    But the alert system, we know of many people who lost their 
lives because they were hearing-impaired. They took out their 
hearing aids during the night of the fire. A neighbor knocked 
on their door but they didn't respond. And so we not only need 
to acknowledge the rapid acknowledgment of a fire and bringing 
the resources to suppress that initially, and in many different 
locations because we had many fires breaking out in Sonoma 
County all on the night of the firestorm and then merging into 
two enormous fires as they went through the county over the 
next 2 weeks. We need to make sure that those alert systems--
and thank you for your work on the alert systems and the 
wireless alert systems.
    Some of the firefighters were so frustrated, we lost cell 
towers, landlines. They were ready to throw their cell phones 
in the fires because they could not communicate. So we need to 
make sure that our vulnerable populations also have the benefit 
of those alert systems. And just one other factoid: the Sonoma 
County assessor has determined that, thus far, 5,100 homes were 
damaged or destroyed in the fire in Sonoma County, a total loss 
of $1.6 billion of assessed value.
    I am missing a very important budget meeting today. We're 
grappling with a budget deficit in the tens of millions of 
dollars for the next couple of years because of our expenses 
and unreimbursed expenses. So anything that you can do to help 
not only the cities, the counties, you are absolutely right. We 
are working together but all of the special districts put 
together, including the fire districts. Thank you.
    Mr. Huffman. Thank you, Sue. But I am just about out of 
time, but I wanted to give Administrator Fenton a chance to 
agree with me, if he does, that the Emergency Management 
Performance Grant Program is a great way for FEMA to support 
communities like Sonoma County that are working on strategies 
to quickly evacuate vulnerable populations.
    Mr. Fenton. Yes, I definitely agree. Also, I think moving 
more funds upfront, as I talked about earlier, will help us 
even before disasters to build in resiliency to communities and 
specifically on the IPAWS [Integrated Public Alert and Warning 
System] and being able to do alert and warnings and 
communication infrastructure, all which is critical to provide 
people timely information to evacuate when necessary. All those 
things and resources could be resolved by better planning, 
building better redundancy and hardening infrastructure prior 
to events.
    Mr. Huffman. Great.
    Thanks, Mr. Chairman.
    Mr. Ferguson. Thank you. Next, I'd like to recognize Ms. 
Brownley.
    Ms. Brownley. Thank you, Mr. Chairman. I appreciate it and 
appreciate you allowing me to be here for this committee 
hearing. The first thing that I want to say is just a 
heartfelt, deep, deep, deep appreciation and gratitude to the 
first responders and firefighters who came to Ventura County as 
we were fighting this raging, raging fire. It was really 
unbelievable to see it and to be there. And I just can't tell 
you, on behalf of all the residents of my community, they are 
so very, very grateful.
    And everyone that I speak to, even those who lost their 
homes, their response is always, ``But we're lucky we're alive. 
My neighbors are alive.'' And certainly in the city of Ventura 
where a lot of the damage occurred, people have lived in that 
community for 20 and 30 years. And so they weren't only 
concerned about themselves. They were concerned about all of 
their neighbors as well. So I just can't overemphasize the deep 
gratitude my community has for all of the first responders.
    And I will just say that we had--at the height of the 
firefighting operation, we had 8,500 firefighters there from 
across the Nation, 987 engines, 27 helicopters, 58 water 
tenders, 153 handcrews, 80 dozers and firefighters came from 
Oregon, Arizona, Washington, Idaho, Montana, New Mexico, 
Nevada, Colorado, and Utah. And I think the thing that 
impressed me the most was the fact that I know there is a 
system in place for firefighters nationwide when a disaster 
occurs. Everyone rallies.
    But the fact that, at the end of the day, this is really, 
truly a volunteer operation. And the fact that everyone came to 
our calling was just amazing, and it has really impressed upon 
my community and the county just how grateful they are and how 
deep their appreciation truly, truly is.
    And I also want to thank FEMA and Cal OES because you were 
there immediately and took charge. And your swift response was 
just overwhelming. And, again, as we are recovering from the 
disaster, the community is overwhelmingly grateful to you and 
understands your response to the community, how quickly we have 
been able to clean up the debris.
    Obviously, there is a long road ahead in terms of recovery. 
But we are extraordinarily grateful. And I think, Ms. Gorin, 
your description in your own community in Sonoma is exactly the 
same description that I can say in both Ventura County and 
Santa Barbara County so thank you for that. We had a 
fundraising event a couple of weeks ago here in Washington for 
the Thomas fire. And the Friday before that, we had had 70-
mile-an-hour winds here in Washington, DC.
    And I was able to say to all of those--because everyone 
that was there was from Washington, DC, or the surrounding 
area. And I said, ``Imagine severe drought conditions and 
striking a match with 70-mile-an-hour winds.'' And that's 
exactly what happened in the Thomas fires in Ventura County. 
And I tell you the whole room just sort of gasped. So, thank 
you.
    I wanted to ask Mr. Ghilarducci. So in terms of--do you 
have an idea, an update, on the status of California's 
reimbursement requests to FEMA for the firefighting and an 
estimate of what you think the future costs will be?
    Mr. Ghilarducci. Yes, good question. We do have--well, the 
update on the firefighting costs and what we call the emergency 
protective measures has been being processed. And many of those 
fire agencies have already been reimbursed. I am happy to say 
that FEMA has, you know, agreed to provide 100 percent of 
reimbursement for firefighting costs or those costs for 
protective measures.
    And it is a varying level on different kinds of projects 
that we are working on. I was also excited to note--and much of 
the work of this body being able to successfully get 90 percent 
for debris clearance. And that was a huge benefit to the 
communities. And we appreciate FEMA's engagement with all that.
    Ms. Brownley. Well, thank you for that. And I, too, wanted 
to just underscore in terms of my opinion how important 
predisaster and post-disaster mitigation truly is. And when 
Governor Brown came to Ventura to oversee the disaster that had 
occurred there, when he spoke, he said, ``Unfortunately, these 
fires are the new normal for California.'' And so I concur with 
that statement, and I think it is critically important that we 
invest more of our resources in that predisaster mitigation but 
also the post-disaster because, today, we are expecting heavy 
rains again in Ventura County and are evacuating people as we 
speak. And so that needs to be addressed. I see that my time is 
up but I thank you----
    Mr. Ferguson. The gentlewoman's time--
    Ms. Brownley [continuing]. For your indulgence, Mr. 
Chairman.
    Mr. Ferguson. Thank you.
    Next, Ms. Plaskett, you are recognized.
    Ms. Plaskett. Yes, thank you, Mr. Chairman. And thank you, 
Ranking Member. First, of course, like so many of my 
colleagues, I want to extend my thanks to you for the work that 
you do, not just in this last horrendous wildfire that we dealt 
with but all throughout the year and all the time you all are 
prepared and ready to serve the people of this country.
    And for that, we are most grateful that you extend not just 
yourselves but your families and your lives to support us and 
to help us. And we're all really grateful for that. You know, I 
think this is very interesting because the other committee that 
I am on is the House Agriculture Committee, which has purview 
over the U.S. Forest Service. In October, we reported out a 
bill that is subsequently adopted by the House in November, the 
Resilient Federal Forests Act. So you are probably familiar 
with it.
    Mr. Fenton, one of the things this bill would do is to 
change the way wildfire fighting efforts are funded, ending a 
process called the borrowing by allowing now Federal agencies 
to tap into disaster funds from FEMA when wildfire suppression 
budgets have been exhausted. I understand that one of the 
concerns with this approach--and I am wondering if you share 
this concern--is that since funding requests for the Disaster 
Relief Fund are based on a 10-year average of costs, fires 
could--don't kill me for the pun--burn through the fund right 
away, and there may not be enough left for other disasters, 
such as tsunamis or earthquakes or hurricanes that have 
occurred most recently. In your view, would the way this 
approach works fix the issue that had been in the past, and do 
you share concerns that this would end up being less money for 
other disasters, and how would you fix this?
    Mr. Fenton. Well, so let me start with right now underneath 
the Stafford Act. We pay firefighting costs for all fires on 
State and local land.
    Ms. Plaskett. Mm-hmm.
    Mr. Fenton. And so all the costs for the northern 
California fires and a good portion of the costs for the 
southern California fires that were on State and local land, 
including all the firefighting resources regardless of local, 
State or Federal, that fought those fires on those lands, we 
are reimbursing those costs right now. So what you're talking 
about specifically, fires on Federal lands and to fight those 
fires on Federal lands, the Stafford Act was focused on helping 
State and local governments during events. So it would be a 
change from that.
    And to further complicate it, as you pointed out, 
underneath the Budget Control Act, based on the 10-year history 
and the amount of funding that it would take to fight those 
fires on Federal lands, it wouldn't leave sufficient funding. 
And we'd probably be coming and asking for supplementals every 
month, especially if you got later into the fiscal year.
    So we need to look for a way to do that outside of tapping 
into the Stafford Act. I think the Stafford Act has been pretty 
clearly, up until now, focused on supporting State and local 
governments. And I think that should be the continued priority, 
and we should look at something outside of the Stafford Act to 
support the U.S. Forest Service and their requirements.
    Ms. Plaskett. But, now, you haven't said whether or not you 
agree with being able to tap into the FEMA funding in other 
areas is going to be beneficial for fighting fires or from--if 
you're putting on your hat from, you know, when you were 
directing FEMA, is this a concern that you would have with 
knowing that there may--we're talking care of firefighters from 
our supplemental right now, but that means we're going to have 
to tap into other funds elsewhere and not knowing if Congress 
is going to be willing to give you those supplements and to the 
amount that you need.
    Mr. Fenton. Right. So I am not sure I fully understand your 
question but I think it's--if we tap into the Stafford Act-
specific funds, it's underneath the 10-year average. It's kind 
of robbing Peter to pay Paul.
    Ms. Plaskett. Right.
    Mr. Fenton. And, therefore, we have to look for another 
way. And we would be happy to sit down and have a discussion. 
And I know Administrator Brock Long has done that and would be 
happy to entertain the discussions of looking for other ways to 
meet those requirements on Federal land.
    Ms. Plaskett. Have you talked about lifting the cap on the 
amount of funding that would be there?
    Mr. Fenton. Well, my understanding is the cap is from 
sequestration and it's a cap imposed.
    Ms. Plaskett. You're not supposed to say the word 
``sequestration'' around here.
    Mr. Fenton. Oh, I am sorry. So it's a--learn something 
every day. It's a--so the cap, as I understand it, is an 
imposed cap.
    Ms. Plaskett. Right.
    Mr. Fenton. Let me change my word here.
    Ms. Plaskett. It's just a dirty word, isn't it?
    Mr. Fenton. Yes, it's an imposed cap that would take a 
change in order for that to be lifted. So it's something that 
we couldn't internally do on our own.
    Ms. Plaskett. OK. Thank you. My time is expired. I yield 
back.
    Mr. Ferguson. OK. Thank you.
    And seeing that we've got--do you have any more?
    Mr. Garamendi has gone. OK. As said before, I'd reserve my 
time to ask a few questions here at the end. And I am going to 
kind of focus at the local level with these. First, Chief 
Jenkins, you kind of view things from a national level. We've 
heard about the disasters in California today but certainly 
wildfires occur in other areas of the country as well.
    Give me a little bit of an idea about if you were going to 
design a program for mitigation, pre-fire mitigation, what 
would be the flexibility that you would need to be able to 
address, say, the concerns in California and the concerns in 
Georgia or western Pennsylvania or even in Arkansas? What are 
the things that you think local communities and local fire 
districts would need?
    Mr. Jenkins. Well, I think the most important attribute of 
any effort to make our communities not only more responsive to 
impending disasters, specifically wildfires, but also more 
resilient is that we have to be able to provide them in a 
framework to make it function.
    And at the same time, we have to understand that at the 
local level, we have to be able to provide some artistic 
freedom for the uniqueness of the topography and sometimes the 
vulnerability of those populations at a local level. And so I 
think if we were to do something like that, we have to be able 
to harness an opportunity to work collaboratively with national 
best practices and also input from local fire and emergency 
management leadership.
    Mr. Ferguson. OK. Mr. Holly, I was interested in the 
conversation about removing fuel from the surrounding areas. In 
Georgia, we do a lot of controlled burns. Every 3 years, you go 
through and manage the forest that way, make sure that they are 
harvested correctly. Is that something that's done? And I am 
just--this is for my own knowledge. Is that something that was 
done in this area, or is that not something that you can do 
because of the topography? Give me an idea of what that's like.
    Mr. Holly. I can't speak to the Federal and to the State 
lands. They do controlled burns in their areas. My particular 
county is in the valley. We have a lot of air control issues, 
air quality control issues. And with that, it's very specific 
times of year that we can or cannot do some controlled burns on 
the agricultural side. But in some of the areas that are more 
fire-prone, it's difficult just because of the topography of 
our area.
    Mr. Ferguson. And so you have to go in and manually clear 
that? When you say that you remove debris----
    Mr. Holly. Correct. In the areas that butt up against 
cities and towns, the property owners are responsible for 
clearing that. Sometimes it's difficult to find those property 
owners. They are from out of the area, or there has been issues 
where somebody has passed away, and we don't know who the 
right, full property owner is and trying to find someone to 
clean that, or we can go in and force-clean that. But then that 
becomes--the cost is borne by the district itself, and that can 
be very expensive, especially for smaller districts.
    Mr. Ferguson. OK. Supervisor Gorin, you talked about the 
need, you know, lessons learned. You've kind of seen what's 
happened and wishing that you had the, as you said, the taller 
poles and the cameras that are looking out. From your 
perspective at the local level, knowing what you know now, 
besides the technology, what would you have done from the 
physical standpoint of protecting the community? What do you 
think would have been advantageous and knowing what you know 
now, looking at other communities, what do you think that that 
should look like?
    Ms. Gorin. I really appreciate your astute questions, 
especially regarding how a community can prepare themselves. 
And vegetation management is something that we are really 
focusing on. We love our trees, especially me, but those 
eucalyptus trees that bordered my property are gone. I did work 
with a mountain community and a volunteer fire company on 
vegetation management using a chipper program and our Youth 
Ecology Corps that we hire at-risk youth to work with property 
owners to cut down the excess fuel, bring the chippers along on 
the roads, chip it up.
    The fire agencies are not exactly thrilled with chipping 
because woodchips do burn, but I checked back with the board 
president of Mayacamas. She said we lost one out of three 
homes. If we had not engaged in this active vegetation 
management, we would have lost maybe all or most of those homes 
so they are grateful for that kind of program. Also----
    Mr. Ferguson. I am about to run out of time and if I----
    Ms. Gorin. Yes.
    Mr. Ferguson [continuing]. Could--because I've got one 
other question.
    Ms. Gorin. Good.
    Mr. Ferguson. Physical firebreaks and fire roads, is that 
something that is normal practice, and do you maintain those 
firebreaks?
    [Nonverbal response.]
    Mr. Ferguson. OK. Because it's--again, me trying to 
understand just the severity of what these communities went 
through, it sounds like you are doing a lot of the right 
things. You are managing the firebreaks. You are removing the 
vegetation. You are doing those kind of things.
    Was this just such a unique event with the 70-mile-an-hour 
winds because it seems like some of the mitigation things were 
done correctly and you were being active in doing that? I make 
that observation that, you know, I want everybody to know that 
you all have been doing some of the pre-event mitigation work. 
And yet this was such an unusual set of circumstances with the 
drought and the high winds that it was just something that--it 
quite candidly was greater than something that we could have 
prepared for in many ways. Yes?
    Mr. Ghilarducci. You are absolutely correct. The challenge 
that we face, though, is that these unique events are becoming 
more regular events and that's the delta that we're facing as 
public safety and the fire service and how do we address that. 
And part of that is how is local land-use planning done now 
where you have the Wildland Urban Interface intermix and how 
best can we look at preexisting fire conditions through 
situational mapping and forecasting to be able to better 
identify where those hazard mitigation efforts could take 
place.
    Mr. Ferguson. OK. Well, thank you.
    I want to thank each of you for your testimony. I want to 
thank you for taking time to come across the Nation and share 
with us your perspective, your expertise, and your knowledge. 
So if there are no further questions, I would ask unanimous 
consent for the record that the record remain open for 15 days 
for any additional comments/information to be submitted by 
Members or witnesses, included in the record of today's 
hearing, and, by unanimous consent, that the record of today's 
hearing remain open until such time as our witnesses have 
provided answers to any questions that may be submitted to them 
in writing.
    Without objection, it is so ordered.
    Again, I'd like to thank each of you for your testimony and 
your time today. If no other Members have anything to add, the 
subcommittee will stand adjourned. Thank you.
    [Whereupon, at 12:05 p.m., the subcommittee was adjourned.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                             [all]
    
                                    
</pre></body></html>
